@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

STEPHEN B. PENCE and THOMAS BEAN,
Petitioners,
v.
VNB NEW YORK, LLC, AS SUCCESSOR
BY MERGER TO VNB NEW YORK CORPORATION,
AS SUCCESSOR IN INTEREST TO.
THE PARK AVENUE BANK,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of August, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI and RULE 12.6
LETTER in the above entitled case. All parties required to be served have been served by third-party commercial carrier for
delivery within 3 calendar days.. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
STEPHEN B. PENCE
PENCE & WHETZEL PLLC
9300 Shelbyville Road, Suite 1205
Louisville, KY 40223
(502) 736-6200
steve@pencelegal.com
Attorney for Petitioners
Stephen B. Pence and Thomas Bean

Subscribed and sworn to before me this 26th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska d / & Chk
RENEE J. GOSS .

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40013
Counsel for Valley National Bank:

Christie Moore

April Wimberg

Bingham Greenbaum Doll, LLP
101 S. Fifth St., Ste. 3500
Louisville, KY 40202

Phone: (502) 589-4200

Email: cmoore@bgdlegal.com
Email: awimberg@bgddlegal.com
